No. 20-6851
IN THE SUPREME COURT OF THE UNITED STATES
_________________________
JEFFREY LEE ATWATER,
PETITIONER,
VS.

STATE OF FLORIDA,
RESPONDENT.
_________________________
PROOF OF SERVICE
I, Julie A. Morley, do swear or declare that on this date, February 22, 2021, as
required by Supreme Court Rule 29 I have served the enclosed REPLY TO
RESPONDENT’S BRIEF IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within three calendar days.
The names and addresses of those served are as follows:
Amit Agarwal
Solicitor General
Office of the Attorney General
State of Florida
The Capitol – PL-01
Tallahassee, FL 32399-1050
amit.agarwal@myfloridalegal.com
Jeffrey Paul DeSousa
Chief Deputy Solicitor General
Office of the Attorney General
State of Florida

107 W Gaines Street
Tallahassee, FL 32399-6549
jeffrey.desousa@myfloridalegal.com
David M. Costello
Assistant Solicitor General
Office of the Attorney General
State of Florida
1515 N Flagler Drive
West Palm Beach, FL 33401-3428
david.costello@myfloridalegal.com
Marilyn M. Beccue
Senior Assistant Attorney General
Florida Attorney General's Office
3507 East Frontage Road, Suite 200
Tampa, Florida 33607-7013
marilyn.beccue@myfloridalegal.com
capapp@myfloridalegal.com

I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 22, 2021.

/s/ Julie A. Morley
Julie A. Morley
LAW OFFICE OF THE CAPITAL COLLATERAL REGIONAL COUNSEL
MIDDLE REGION
12973 N. TELECOM PARKWAY
TEMPLE TERRACE, FLORIDA 33637
PHONE NO. (813) 558-1600
FAX NO. (813) 558-1601
Email: morley@ccmr.state.fl.us

